Memorandum from the Office of the Inspector General



November 6, 2007

John E. Long, Jr., WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2007-030F – REVIEW OF TVA'S
HOSPITALITY EXPENSES



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

If you have any questions, please contact Andrea L. Williams, Auditor, at (865) 632-2612 or
Lisa H. Hammer, Director (Acting), Financial and Operational Audits, at (865) 632-4731. We
appreciate the courtesy and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

LHH:JP
Attachment
cc (Attachment):
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Ben R. Wagner, ET 4C-K
      OIG File No. 2007-030F
Office of the Inspector General           Audit Report
                                  To the Chief Administrative Officer
                                  and Executive Vice President,
                                  Administrative Services




REVIEW OF TVA'S
HOSPITALITY EXPENSES




Auditor                                                Audit 2007-030F
Andrea L. Williams                                    November 6, 2007
Office of the Inspector General                                                    Audit Report


SYNOPSIS
As part of our annual audit plan, we reviewed hospitality expenses incurred by
Tennessee Valley Authority's (TVA) organizations from October 1, 2005, through
June 30, 2007. The objectives of our audit were to (1) determine the types and
level of expenditures for hospitality activities in TVA organizations, (2) assess
compliance with policies and procedures related to the hospitality program, and
(3) compare previous and current hospitality policies and identify the differences.

In summary, we found:

•     Total hospitality expenditures, including employee recognition expenses,
      have averaged about $2.3 million during the past three fiscal years (FY),1
      representing a 64 percent reduction from FY 2003 spending. Discussed in
      this report are some of the more significant hospitality events held during
      FY 2006.
•     For the expenses reviewed, TVA organizations generally complied with
      applicable hospitality policies and procedures except as related to obtaining
      preapproval of hospitality expenditures.
•     Changes in the hospitality policy for FY 2007 include (1) an additional
      required preapproval by the Chief Executive Officer (CEO) for hospitality
      expenses $5,000 and greater, (2) the removal of employee recognition
      expenses as hospitality expenses, (3) guidance regarding the purchase of
      alcoholic beverages, and (4) specific types of events that are not appropriate
      for hospitality.

TVA's Chief Administrative Officer and Executive Vice President, Administrative
Services (CAO and EVP), responded to a draft of our report and provided
planned actions to ensure all TVA organizations obtain preapproval for hospitality
events and expenditures. In addition, the CAO and EVP stated that TVA's
Business Practice 7 (BP 7) had been revised to require the use of form
TVA 17901 when requesting preapproval for hospitality events and expenditures.


BACKGROUND
The TVA hospitality program is guided by BP 7, Hospitality. According to BP 7,
TVA offers hospitality to official visitors, present and prospective customers and
other invited guests, and contractor employees as a part of its business activities
when it is determined to be in TVA's best business interests. BP 7 further states
that providing "hospitality to stakeholders and others is an appropriate activity for
TVA to engage in as part of its business activities; however, it must always be
based on a sound business need, be prudent and appropriate to the occasion


1
    FY 2007 fourth quarter expenditures were projected for comparative purposes.
Audit 2007-030F                                                                         Page 1
Office of the Inspector General                                               Audit Report


and circumstance, and be consistent with the need to maintain public confidence
that TVA resources are used only for the benefit of the public which it serves."

According to BP 7, costs for hospitality included, but were not limited to:

•   Meals.
•   Refreshments.
•   Banquet and food services.
•   Room and equipment rents (associated with hospitality).
•   Lodging, meals and travel expenses for visitors, other invited guests, and
    interviewees.
•   Entertainment and noncash gifts associated with TVA-sponsored events.

Activities defined by BP 7 as appropriate for hospitality include (1) TVA-
sponsored events such as open houses, site celebrations, and employee
appreciation activities and (2) procurement of alcoholic beverages as appropriate
for the occasion, but of a predetermined quantity and value (no open bars).

Inappropriate activities include (1) any activity that would likely be perceived by a
reasonable member of the public as an improper or inefficient use of TVA
resources and (2) expenditures for TVA contributions to charitable, civic, and
other nonprofit organizations that fall under the guidance of Business
Practice 21, Contributions.

The VISA Gold credit card is the preferred method of acquisition/payment for
hospitality. Additionally, TVA's Expense Reimbursement System (ERS) may be
used to obtain reimbursement of out-of-pocket or hospitality expenses obtained
using the travel card by any TVA employee authorized to purchase hospitality.
Prior approval of hospitality is also required when payment of hospitality is
requested by subvoucher or convenience check.

According to TVA's CFO-SPP-13.2.6, hospitality transactions should be recorded
as cost classification code 25W in TVA's Integrated Business System (IBS). The
transactions classified as hospitality by all TVA organizations for FY 2006 were
approximately $2.7 million.

The Office of the Inspector General has previously conducted reviews covering
hospitality expenses made during FYs 2003 and 2005.


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objectives were to (1) determine the types and level of expenditures for
hospitality activities in TVA organizations, (2) assess TVA organization's
compliance with BP 7, and (3) compare previous and current hospitality policies
Audit 2007-030F                                                                    Page 2
Office of the Inspector General                                                    Audit Report


and identify the differences. We reviewed expenditures for FY 2006 and the first
three quarters of FY 2007 incurred by TVA organizations. We further reviewed
first quarter of FY 2007 expenses for compliance with BP 7. To achieve our
objectives, we:

•     Obtained general ledger reports from IBS showing hospitality expenses
      classified as cost class 25W recorded from October 1, 2005, through June 30,
      2007. We also compared TVA's total hospitality spending for FYs 2003,
      2005, 2006, and 2007 through third quarter.
•     Obtained and reviewed purchases made with (1) TVA VISA Gold Cards,
      (2) TVA Purchasing Cards, and (3) convenience checks classified as
      hospitality to determine hospitality expenses for each organization.
•     Summarized each organization's total expenses by type of expense (e.g.,
      food/restaurant charges, hotel charges, etc.). We classified hospitality
      expenses based on the type of vendor to which the payment was made. In
      addition, where information was available, we identified the event associated
      with the expenses.
•     Obtained documentation of preapproval of hospitality expenses from TVA
      organizations for event or expenditures requested and occurring in the first
      quarter of FY 2007. Each request for preapproval was reviewed for evidence
      of proper approval as required in the hospitality policy, evidence of approval
      prior to the date of the event, and that the type of event or expense was
      allowed under the hospitality policy.
•     Using IBS and Integrated Credit Card System (ICCS) reports, we selected all
      transactions greater than $500 with an effective date between October 1,
      2006, and December 31, 2006, for review of compliance with BP 7.
•     Compared TVA's current BP 7 dated October 2006 to the previous BP 7
      dated April 2006 and identified any differences.

This audit was performed in accordance with generally accepted government
auditing standards. Although we did not test for compliance with laws and
regulations, nothing came to our attention during the audit that indicated
noncompliance with laws and regulations except as noted in this report.


FINDINGS
In summary, we found the following:

•     Total hospitality expenditures, including employee recognition expenses,
      have averaged about $2.3 million during the past three FYs,2 representing a
      64 percent reduction from FY 2003 spending. Discussed below are some of
      the more significant hospitality events held during FY 2006.

2
    FY 2007 fourth quarter expenditures were projected for comparative purposes.
Audit 2007-030F                                                                         Page 3
Office of the Inspector General                                                                      Audit Report


•     For the expenses reviewed, TVA organizations generally complied with
      applicable hospitality policies and procedures except as related to obtaining
      preapproval of hospitality expenditures.
•     Changes in the hospitality policy for FY 2007 include (1) an additional
      required preapproval by the CEO for hospitality expenses $5,000 and greater,
      (2) the removal of employee recognition expenses as hospitality expenses,
      (3) guidance regarding the purchase of alcoholic beverages, and (4) specific
      types of activities that are not appropriate for hospitality.

HOSPITALITY EXPENSES
We identified $2,699,355 in hospitality spending incurred by TVA organizations
during FY 2006. We compared TVA's FY 2006 total hospitality expenses to
FYs 2003 and 2005 expenses identified in our previous reviews as well as
expenses incurred during the first three quarters of FY 2007. Hospitality
expenses decreased approximately 64 percent from FY 2003 spending. Since
FY 2003, hospitality spending has averaged about $2.3 million per year
(including employee recognition).

Hospitality spending for the first three quarters of FY 2007 totaled $759,701.
Although FY 2007 costs have decreased from FY 2006, FY 2007 expenses do
not include approximately $978,000 of employee recognition expenses, which
were excluded from hospitality as of October 2006 (Figure 1).

                                         Total Hospitality Expenses by Fiscal Year

                     7,000,000
                                     -
                     6,000,000

                     5,000,000

                     4,000,000
                                   6,495,300
                     3,000,000
                                                                       -
                     2,000,000                         -
                                                                    2,699,355         977,764 *
                     1,000,000                      1,940,970
                                                                                      759,701
                           -
                                    2003             2005             2006             2007
                     * Employee recognition expenses excluded from hospitality as of October 2006.
                                                                                           Figure 1

We reviewed $2,191,4303 in FY 2006 hospitality expenses made by VISA Gold
Cards, TVA Purchasing Cards, and convenience checks and categorized them
by organization and expense type in Figure 2.


3
    We did not include miscellaneous vouchers or expenses submitted through the ERS in our categorization.
Audit 2007-030F                                                                                           Page 4
Office of the Inspector General                                                                       Audit Report


                                    Hospitality Expenses for FY 2006
                                      (by Organization and Type)
                                                4
         Org     Florists    Golf      Hotels        Food       Retail    Tickets    Other           Total

       Board                                          $3,724                              $8          $3,732
       CAO        $7,540               $66,992        98,121    $19,305     $320      16,356         208,634
       CEO                                 768          600          81                  130            1,579
                                                                                               5
       CFO         1,935                 4,434        16,031      1,361              (4,454)          19,307
       COO        27,011      $819     148,389       263,342    402,454     4,499    127,373         973,887
       Comm          386      4,859     16,921        61,178     17,331               14,571         115,246
       CR          7,426     16,576    256,321       352,256     81,111    59,881     87,198         860,769
       OGC                                             1,434                                 7          1,441
       OIG           139                    76         3,092      2,369                1,159            6,835
       Total     $44,437    $22,254   $493,901      $799,778   $524,012   $64,700   $242,348       $2,191,430

                                                                                                   Figure 2

In addition to our categorization of expenses as shown above, we identified any
special events associated with the charges. We identified the following
significant expenditures related to special events in FY 2006:

•     Customer Resources (CR) hosted one event in Washington, D.C., and one
      event in Orlando, Florida, for the National Rural Electric Cooperative Association
      (NRECA). These events were held for TVA distributors during the NRECA
      annual conference and legislative rally. The total cost for the events was
      $76,046 and primarily included food and room charges.
•     CR also hosted events for site consultants and prospects in Atlanta, Georgia;
      Detroit, Michigan; and Chicago, Illinois. According to preapproval forms, the
      benefit of these events was to create jobs and investments in the Valley. The
      total cost of these events was $97,733 and included food and room charges;
      tickets and suites at professional football, baseball, and hockey sporting
      events; and entertainment. Subsequent to these events, TVA revised BP 7 to
      prohibit "sky boxes, corporate suites or similar type arrangements for sporting
      or other public events" as activities appropriate for hospitality.
•     Power System Operations (PSO) rewards its employees for safety excellence
      by holding safety-related events throughout the year at various locations.
      This includes regional events, such as the Transmission Operations and
      Maintenance Valley Tour, as well as safety meals provided by various PSO
      supervisors. During FY 2006, PSO purchases totaled $336,393 and included
      safety meals, rental space for events, and safety awards. The safety awards
      included televisions, XBOX gaming systems, digital camcorders and
      cameras, DVD recorders, Apple iPods, Stihl chain saws, weed eaters, and
      leaf blowers.



4
    Hotel costs may include room rentals for events and banquet charges.
5
    Credit for charges in a prior period.
Audit 2007-030F                                                                                              Page 5
Office of the Inspector General                                           Audit Report


We also identified charges that should have been charged to other cost
classifications than 25W. For example, we identified travel-related charges such
as airport parking, rental cars, and meals. We did not quantify the amounts that
could have been misclassified.

COMPLIANCE WITH HOSPITALITY POLICY
TVA's BP 7 requires that all hospitality events or expenditures greater than $500
be preapproved. We obtained and reviewed 38 requests for approval of
hospitality events or expenditures occurring in the first quarter of FY 2007 for
compliance with policy preapproval requirements. We found:

•   A request by Economic Development for a Tennessee Business
    Matchmaking event contained no evidence of preapproval.
•   Fourteen of the thirty-eight requests were not approved prior to the date of the
    event. Thirteen of these requests were for events in the CR organization, and
    one request was for an event in the Fossil Power Group organization.

We discussed the above issues with the CR Controller. The CR Controller
informed us that the first quarter of 2007 was a "learning experience" and that
CR has gotten better at obtaining preapproval since that time. The CR Controller
also provided an October 26, 2006, e-mail from the Executive Vice President of
CR to the Vice President of Customer Service (CS) reinforcing that hospitality
events need to be preapproved and will not be approved after the fact and that
CS' General Managers should be informed of policy enforcement.

We also reviewed IBS reports and identified 48 transactions greater than $500,
with an effective date between October 1, 2006, and December 31, 2006, to
determine whether these hospitality events or expenditures were preapproved.
For these 48 transactions, we identified 44 individual credit card charges in ICCS
that were $500 or more. We found 22 of the 44 ICCS charges were not
approved prior to the event. Ten of these charges were related to the thirteen
CR events as shown above. In addition, preapproval could not be determined for
one charge since the date of approval was not documented on the request.

Preapprovals were generally submitted using form TVA 17901, "Pre-Approval of
TVA Employee Recognition/Hospitality Expenditure." However, BP 7 does not
include a method for preapproval of hospitality events and expenditures,
specifically use of form 17901. We discussed this with the Senior Manager,
Disbursement Services, who advised us BP 7 will be revised to reference the use
of form TVA 17901 when requesting preapproval of hospitality events and
expenditures.

CHANGES IN HOSPITALITY POLICY
We compared the current hospitality policy dated October 2006 to the previous
policy dated April 2006 and identified the following three differences as related to
Audit 2007-030F                                                                Page 6
Office of the Inspector General                                              Audit Report


(1) preapproval requirements, (2) employee recognition expenses,
(3) procurement of alcoholic beverages, and (4) specific types of activities not
appropriate for hospitality.

•   TVA's current policy states that hospitality costing more than $2,000 but less
    than $5,000 must be preapproved by an officer reporting directly to the CEO.
    Previously, hospitality purchases within these limits were preapproved by a
    TVA officer (Vice President or above). Hospitality costing more than $5,000
    must now be preapproved by the CEO instead of an officer reporting directly
    to the CEO, as stated in the previous policy.
•   TVA's current policy excludes spending related to employee recognition.
    TVA's Controller created a separate policy, Benefits Practice 5, Employee
    Recognition and Acknowledgement, as guidance for employee recognition
    related events and expenditures.
•   TVA's current policy states that activities appropriate for hospitality include
    "Procurement of alcoholic beverages as appropriate for the occasion, but of a
    pre-determined quantity and value (no open bars.)." TVA's prior policy was
    silent with regard to the purchase of alcoholic beverages.
•   TVA's current policy identifies specific activities including "golf/country club or
    other social club individual memberships; sky boxes, corporate suites or
    similar type arrangements for sporting or other public events; and receptions
    or meetings held at unnecessarily lavish locations or settings" as not
    appropriate for hospitality. TVA's prior policy did not include specific activities
    considered not appropriate for hospitality.

MANAGEMENT RESPONSE
TVA's CAO and EVP responded to a draft of our report and provided planned
actions to ensure all TVA organizations obtain preapproval for hospitality events
and expenditures. According to the CAO and EVP, TVA organizations are now
required to include hospitality expenses in their budget planning and track these
expenditures for consistency and budget restrictions through preapproval forms.
In addition, the CAO and EVP indicated preapproval forms must now be initialed
by the business unit Controller prior to processing.

In addition, the CAO and EVP stated that BP 7 was revised as of October 22,
2007, to require the use of form TVA 17901 when requesting preapproval for
hospitality events and expenditures.

We concur with the CAO and EVP's actions, planned and taken.




Audit 2007-030F                                                                   Page 7
APPENDIX
Page 1 of 2
APPENDIX
Page 2 of 2
